No. 21-219
Clear Channel Outdoor, LLC,
Petitioner,

 

v.
Henry J. Raymond, Director,
Department of Finance of Baltimore City,
Respondent.

 

 

CERTIFICATE OF SERVICE

 

I hereby certify that I am a member in good standing of the Bar of this Court
and that on September 22, 2021, I caused a copy of RESPONDENT'S OPPOSITION
TO MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF OF OUT OF HOME
ADVERTISING ASSOCIATION OF AMERICA to be served on the counsel for
Petitioners and counsel for Amici Curiae identified below by Federal Express
overnight, and caused an electronic version to be transmitted to the counsel for
Petitioners and counsel for Amici Curiae identified below, pursuant to Rule 29 of the
Rules of this Court. All parties required to be served have been served.

Counsel for Petitioner:

Kannon K. Shanmugam

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, NW | Washington, DC 20006-1047
202-223-7300

kshanmugam@paulweiss.com

Counsel for Amicus Curiae OAAA:
Keith Bradley

Squire Patton Boggs (US) LLP
1801 California Street, Suite 4900
Denver, Colorado 80202
303-830-1776
keith.bradley@squirepb.com

Counsel for Amicus Curiae Chamber of Commerce:
Derek Shaffer

Quinn Emanuel Urquhart & Sullivan, LLP

1300 I Street, NW, Suite 900

Washington, D.C. 20005

202-538-8000

derekshaffer@quinnemanuel.com
Respectfully submitted,

MICHAEL REDMOND

Counsel of Record for Respondent
Baltimore City Law Department
100 N. Holliday Street, Suite 101
Baltimore, MD 21202
(410) 396-7536
michael.redmond@baltimorecity.gov

September 22, 2021
